                                                             United States Department of State
                                                             and the Broadcasting Board of Governors

                                                             Office of Inspector General


                                                                      AUG 11 2011


MEMORANDUM

TO:            NLMlAQM ­ Cathy J. Read        f\   I   ,n
FROM:         OIG - Harold W. Geisel      /    WJY7
SUBJECT:      Report on Audit ofDepartment ofState Safeguarding Citizens - Computer Security
              Systems Program Funded by the American Recovery and Reinvestment Act

The subject report is attached for your review and action . As the action oflice for the report's one
recommendation, please provide your response to the report and information on actions taken or
planned for the recommendation within 30 days ofthe date of this memorandum. Actions taken or
planned are subject to follow-up and reporting in accordance with the attached compliance response
information.

The Office of Inspector General (OIG) incorporated your comments as appropriate within the body
of the report and included them in their entirety as Appendix C.

OIG appreciates the cooperation and assistance provided by your staff during this audit. If you have
any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits, at (202)
663 -0372 or Richard Astor, Division Director, at (703) 284-2601 or by email at astorr@state.gov.

Attachment: As stated.

cc: 	 INRJEXlB&F­ (b) (6)
      MlPRI ­ (b) (6)
                            ill• • • •
      IRM/BMP/SPO/SPD - (b) (6)
                                            UNCLASSIFIED





                        United States Department of State 

                     and the Broadcasting Board of Governors


                                 Office of Inspector General


                                          Office of Audits 





                        Audit of the Department of State 

                             Safeguarding Citizens – 

                      Computer Security Systems Program 

                                 Funded by the 

                     American Recovery and Reinvestment Act 



                                            AUD/CG-11-36 

                                             August 2011 




                                             Important Notice

    This report is intended solely for the official use of the Department of State or the Broadcasting
    Board of Governors, or any agency or organization receiving a copy directly from the Office of
    Inspector General. No secondary distribution may be made, in whole or in part, outside the
    Department of State or the Broadcasting Board of Governors, by them or by other agencies or
    organizations, without prior authorization by the Inspector General. Public availability of the
    document will be determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552.
    Improper disclosure of this report may result in criminal, civil, or administrative penalties.
                                   




                                            UNCLASSIFIED

                                                               United States Department of State
                                                               and the Broadcasting Board of Governors

                                                               Office of Inspector General

                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the Department of State's (Department) compliance with Federal,
Department, and American Recovery and Reinvestment Act (Recovery Act) acquisition
management practices as related to the Department's Safeguarding Citizens - Computer Security
Systems program. The report is based on interviews with Department employees and officials,
direct observation, and a review of applicable documents.

        OIG contracted with the independent public accountant Clarke Leiper, PLLC, to perform
this audit. The contract required that Clarke Leiper perform its audit in accordance with
guidance contained in the Government Auditing Standards, issued by the Comptroller General of
the United States. Clarke Leiper's report is included.

        Clarke Leiper identified three areas in which improvements could be made: transparency
of award notifications posted on the Web site FedBizOpps, compliance with certain requirements
established by the Office of Management and Budget, and accuracy of reporting by award
recipients.

        OIG evaluated the nature, extent, and timing of Clarke Leiper's work; monitored progress
throughout the audit; reviewed Clarke Leiper's supporting documentation; evaluated key
judgments; and performed other procedures as appropriate. OIG concurs with Clarke Leiper's
findings, and the recommendations contained in the report were developed on the basis of the
best knowledge available and were discussed in draft form with those individuals responsible for
implementation. ~IG's analysis of management's response to the recommendations has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
andlor economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                       Harold W. Geisel
                                       Deputy Inspector General
                                             UNCLASSIFIED





                                            CLARKE LEIPER PLLC
                                         CERTIFIED PUBLIC ACCOUNTANTS
                                               6265 FRANCONIA ROAD
                                             ALEXANDRIA, VA 22310-2510
                                                    703-922-7622
                                                 FAX: 703-922-8256
DORA M. CLARKE
LESLIE A. LEIPER


       Audit of the Department of State Safeguarding Citizens – Computer Security Systems Program
       Funded by the American Recovery and Reinvestment Act



       Office of Inspector General
       U.S. Department of State 

       Washington, D.C. 


       Clarke Leiper, PLLC (referred to as “we” in this letter), has performed an audit of the
       Department of State (Department) Safeguarding Citizens – Computer Security Systems program
       funded by the American Recovery and Reinvestment Act (Recovery Act). We evaluated the
       program’s planned activities, contracts awarded with Recovery Act funds, and compliance with
       reporting requirements established by the Recovery Act. This performance audit, performed
       under Contract No. SAQMPD04D0033, was designed to meet the objective identified in the
       report section titled “Objective” and further defined in Appendix A, “Scope and Methodology,”
       of this report.

       We conducted this performance audit from April through October 2010 in accordance with
       Government Auditing Standards, issued by the Comptroller General of the United States. We
       communicated the results of our performance audit and the related findings and
       recommendations to the U.S. Department of State Office of Inspector General.

       We appreciate the cooperation provided by personnel in Department offices during the audit.




       Clarke Leiper, PLLC
       July 2011




                                             UNCLASSIFIED

                               UNCLASSIFIED





ACRONYMS

A/LM/AQM       Bureau of Administration, Office of Logistics Management,
                      Office of Acquisitions Management
Department     Department of State
DS             Bureau of Diplomatic Security
FAR            Federal Acquisition Regulation
FBO            Federal Business Opportunities (FedBizOpps)
FPDS           Federal Procurement Data System
GFMS           Global Financial Management System
IRM            Bureau of Information Resource Management
IT             information technology
OIG            Office of Inspector General
OMB            Office of Management and Budget
Recovery Act   American Recovery and Reinvestment Act of 2009
TAS            Treasury Account Symbol




                               UNCLASSIFIED

                                                            UNCLASSIFIED



                                                     TABLE OF CONTENTS

 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Objective ..............................................................................................................................3 


Results of Audit ...................................................................................................................3 

   A. Program Objectives Are Being Accomplished ........................................................4 

   B. Program Is Generally in Compliance With Recovery Act Requirements ...............5 


Appendices
   A. Scope and Methodology ..........................................................................................7 

   B. Capital Investment Fund ........................................................................................10 

   C. Bureau of Administration Response ......................................................................11 





                                                            UNCLASSIFIED

                                           UNCLASSIFIED



                                       Executive Summary

       The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provided
approximately $25.4 million to fund the Safeguarding Citizens – Computer Security Systems
(Safeguarding Citizens) program to deploy state-of-the-art computer security systems to the
Department of State (Department) headquarters building and embassies worldwide.

       The objective of our audit was to determine whether the Department adequately
implemented Safeguarding Citizens program plans, achieved stated program outcomes, and
complied with the reporting requirements of the Recovery Act.

        We found that program managers in the Bureau of Information Resource Management
(IRM) have planned for and integrated the Safeguarding Citizens program into the Department’s
existing information technology (IT) initiatives. Because the objectives of the Safeguarding
Citizens program are part of an already-existing IT Strategic Plan, much of the initial planning
has already been approved. The plan includes appropriate focus on accountability and other
requirements of Recovery Act funds. In addition, we determined that the Department’s plans
were thorough and well thought out. Delays in scheduled progress have been justified and were
considered to be reasonable.

        The Department has taken appropriate actions in establishing guidelines intended to
ensure compliance with Office of Management and Budget (OMB) requirements for the
Recovery Act. Contracts were awarded in accordance with the Federal Acquisition Regulation
(FAR) and OMB memoranda.2 Procedures related to data transparency and reporting
requirements were established and implemented. While procedures related to data transparency
and reporting requirements were established and implemented, a few minor instances of
noncompliance were identified for the program. Recovery Act transparency requirements
identifying the purpose, nature, and corresponding program for contract awards were not met
prior to the awards being posted or publicized. Also, some Recovery Act award information was
not reported accurately.

       We recommended that the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management (A/LM/AQM), enhance its contract oversight efforts to
ensure more complete and accurate reporting of award information.

        In its response to the draft report (see Appendix C), AQM concurred with the
recommendation. Based on the response, OIG considers the recommendation resolved, and it
will be closed pending review and acceptance of documentation for the actions OIG specified.
The response and OIG’s analysis are presented after the recommendation.




1
 Pub. L. No. 111-5, 123 stat. 115 (2009). 

2
 Memorandums M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,

and M-09-15, Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009.


                                                     1

                                           UNCLASSIFIED
                                        UNCLASSIFIED


                                          Background
        The Recovery Act was signed into law as a direct response to the recent economic crisis
in an effort to jumpstart the economy and invest in long-term growth by creating or saving jobs
and putting a downpayment on addressing long-neglected challenges. The Department was
provided $602 million in Recovery Act funds to create and save jobs, repair and modernize
domestic infrastructure crucial to the safety of American citizens, enhance energy independence,
and expand consular services offered to American taxpayers. The Recovery Act also established
an unprecedented level of accountability and transparency in Government spending. Agencies
and contractors were subject to new reporting requirements set forth by OMB that allow the
general public to view Recovery Act spending in a direct and timely manner. The Department’s
projects and a breakdown of proposed spending of Recovery Act funds are summarized in
Table 1.

Table 1. Department of State Projects and Proposed Spending of Recovery Act Funds
Department of State – Account / Project                                          Funds (in 000s)
Diplomatic & Consular Programs                                                              $90,000
    - Hard Skills Training Center                                                            70,000
    - Consular Affairs Passport Facilities                                                   15,000
    - National Foreign Affairs Training Center                                                5,000
Capital Investment Fund                                                                   $290,000
    - Data Center                                                                           120,000
    - IT Platform                                                                            33,500
         Diplomatic Facility Telephone System Replacement                                    10,000
         Replacement of Aging Desktop Computers (GITM)                                       13,000
         Mobile Computing                                                                    10,500
    - Cyber Security                                                                         98,500
         Tools to Guard Against & Track Cyber Attacks                                        64,205
         Strengthen Computer H/W Security Testing & Forensic Investigations                   4,000
         Safeguarding Citizens – Computer Security Systems                                  $25,366
         Expanded Cyber Education                                                             4,929
    Transfer to U.S. Agency for International Development (USAID)                            38,000
Office of Inspector General                                                                  $2,000
International Boundary and Water Commission Construction                                  $ 220,000
                                                                    TOTAL                  $ 602,000
Source: Department of State.


     Of the total $602 million the Department received in Recovery Act funds, $25,366,000 was
designated for the Safeguarding Citizens program. This program involves deploying state-of-
the-art computer security systems to the Department headquarters building and at U.S.
Embassies worldwide.

        The Department of State’s unique relationships with the Departments of Homeland
Security, Justice, and Defense and with private-sector partners make the Department of State’s
information a major target of hostile intelligence services and terrorist organizations. This threat
to the Department’s information systems must be addressed to protect American interests and

                                                 2

                                        UNCLASSIFIED
                                       UNCLASSIFIED


citizens both domestic and overseas. The critical systems that process passports and visas,
support foreign policy negotiations, and synchronize U.S. evacuations are under constant attack.
The Department requires cutting-edge security solutions that incorporate comprehensive and
modern protections to enhance National security and address the challenges of constantly
changing cyber threats. To address these issues, the Safeguarding Citizens program has three
main projects:

   1.	 Public Key Infrastructure (PKI – Smart ID badges) – This program allows all domestic
       Department employees and contractors to gain physical access to Department facilities
       and logical access to information systems through the issuance of a single Smart
       identification (ID) badge, which is in contrast to the current “two-card” system.
       Recovery Act funds will be used to assist current Department efforts in procuring and
       implementing these Smart cards and card readers.
   2.	 Secure Voice Phones (SV) –The Department’s current secure telephones use technologies
       that were developed in the late 1980s and 1990s. The end of life of this Government-
       developed system and the change of the global telephone infrastructure to Voice over
       Internet Protocol (VoIP) are making the current telephones unreliable and encouraging
       the Department to accelerate its migration to the next generation telephone, which uses
       VoIP technologies. Recovery Act funds will be used to supplement current Department
       efforts by funding the procurement of secure telephones.
   3.	 Anti-Virus (AV) – The AV Program implements and manages Department-wide
       countermeasures to stop malicious code, such as computer viruses, SPAM, adware,
       phishing, spyware, and other cyber threats. Recovery Act funds will be used to extend
       current anti-virus capabilities to allow for the following centrally managed and
       configured processes:
           a.	 Prevent the use of any unauthorized devices (for example, USB thumb drives) on
               any system within the Department while allowing authorized devices to be used at
               any location enterprise-wide.
           b.	 Prevent unauthorized software from running or log, based on security
               requirements of the system, attempts to run unauthorized software.
           c.	 Prevent any system not meeting current security profiles (such as patch status)
               from connecting to the network and offer remedial action options for network
               control centers.

                                          Objective
       The objective of our audit was to determine whether the Department adequately
implemented Safeguarding Citizens program plans, achieved stated program outcomes, and
complied with the reporting requirements of the Recovery Act.

                                      Results of Audit
        The Department has made progress in accomplishing its Safeguarding Citizens program
objectives and milestones. The success of the program was the result of collaboration between
several Department bureaus and other Department personnel and contractor staff.


                                               3

                                       UNCLASSIFIED
                                            UNCLASSIFIED

       As of September 30, 2010, almost 100 percent of the $25,366,000 in program funds had
been obligated for contracts to support three major subprojects: Public Key Infrastructure (PKI –
Smart ID badges), Secure Voice Phones, and Anti-Virus Countermeasures.

        Overall, program managers in IRM have complied with OMB management and financial
oversight requirements. Also, funds were awarded and distributed in a prompt, fair, and
reasonable manner. However, we noted several areas in which Recovery Act procedures were
not followed and contract data was not reported accurately.

Finding A. Program Objectives Are Being Accomplished

        Based on our inquiries of project management, review of supporting documentation, and
tests for propriety of contract obligation and expenditure transactions, we determined that
satisfactory progress is being made on meeting program objectives. Recovery Act funds are
appropriately accounted for and being used in accordance with approved program plans. The
objectives of the Safeguarding Citizens program do not encompass complete and discrete plans
for the Department’s existing Safeguarding Citizens and Information Technology (IT) Strategic
Plan. These Recovery Act-funded activities are only partial components of broader Department
plans. Therefore, the Safeguarding Citizens program is intended primarily to supplement the
Department’s current efforts by funding certain activities within those plans. We found that the
Safeguarding Citizens program did not experience any significant delays or funding issues with
regard to those activities funded by the Recovery Act.

       As of September 30, 2010, almost 100 percent of the $25,366,000 in program funds had
been obligated for contracts to support three major subprojects: Public Key Infrastructure (PKI –
Smart ID badges), Secure Voice Phones, and Anti-Virus Countermeasures.

      Major contracts awarded using Recovery Act funds under the Safeguarding Citizens 

program are shown in Table 2. 


Table 2. Safeguarding Citizens Program Major Contracts Awarded
                                                  (As of September 30, 2010)
         VENDOR           AWARD NUMBER         OBLIGATIONS EXPENDITURES                  GOODS / SERVICES
PKI   Precise            SAQMMA09C0175             $5,875,000           $5,875,000   Biometric readers and
      Biometrics                                                                     equipment
PKI   Siemens Govt       SAQMPD05D1115                 $5,273,774       $2,094,002   Installation of card readers for
      Services                                                                       building access
PKI   Agtech, LLC        SAQMMA07F1066                 $3,967,527       $1,474,551   Third-party independent
                                                                                     support to conduct Federal PKI
                                                                                     cross-certification audits
SV    National           (Federal Vendor)              $4,999,400       $4,999,400   Procurement of 1,720 vIPer
      Security Agency    Not an award                                                secure telephones
AV    Carahsoft          SAQMMA10F2459                 $3,049,803       $2,604,200   Anti-virus software and
      Technology                                                                     support
      Group
                                    TOTAL          $23,165,504         $17,047,153
Source: Department of State.



                                                   4

                                            UNCLASSIFIED
                                             UNCLASSIFIED



Finding B. Program Is Generally in Compliance With Recovery Act
Requirements
         IRM program managers adequately planned for and managed funds provided for the
Safeguarding Citizens program. Recovery Act funds were used for their intended purposes, and
overall, the Department complied with OMB requirements. Funds were awarded and distributed
in a prompt, fair, and reasonable manner. Also, contractors and other fund recipients met
eligibility requirements and complied with award requirements. For example, fixed-price
contracts were made to American companies for hardware, software, and circuits in support of
American high-technology companies. As required by the Recovery Act, separate Treasury
Account Symbols (TAS) were established for the Safeguarding Citizens program. As reported
through the Department’s Capital Investment Fund, we verified that program funds had proper
approvals and that the monitoring of subprojects and contracts was adequate, as detailed in
Appendix B, “Capital Investment Fund.” We did note, however, some minor instances in which
Recovery Act procedures were not followed and contract data was not reported accurately.

Notifications on the Federal Business Opportunities Web Site

        For the 15 contracts reviewed, we found that the majority of the FedBizOpps.gov
notifications did not provide adequate transparency or a clear understanding to the general public
of the purpose, nature, and corresponding program of the procurements. The Department has
publicized both its program plans and its contracts awarded with Recovery Act funds. However,
12 award notifications did not reference specific program plans or objectives, which made it
difficult to determine which awards were made with respect to the Department’s Recovery Act
programs. In addition, 17 award notifications did not include descriptions of the products or
services that could be readily understood by the general public.

          In that regard, OMB Memorandum M-09-153 states:

          Agencies should ensure that their descriptions of procurements use language
          appropriate for a more general audience, avoiding industry-specific terms and
          acronyms without plain language explanations. Taxpayers, media, and others are
          using our business systems to gain insight on how Recovery Act funds are being
          spent.

        Transparency and accountability of Recovery Act funds are major requirements of the
act. Since almost all program funds have been obligated, however, we are not making any
recommendations for IRM to take actions to improve transparency for future procurement
notifications reported through FebBusOpps.gov. Nevertheless, this deficiency prevented the
general public from having the ability to identify procurements made pursuant to the
Safeguarding Citizens program, since descriptions within award notifications did not contain
references or mention corresponding programs.



3
    OMB Memorandum M-09-15, pt. 6.2, p. 57 (April 3, 2009).

                                                       5

                                             UNCLASSIFIED
                                           UNCLASSIFIED


        Recommendation 1. We recommend that the Bureau of Administration, Office of
        Logistics Management, Office of Acquisitions Management, ensure, through more
        effective oversight of the quarterly review of recipient-reported data, that contractors that
        receive awards from the American Recovery and Reinvestment Act for the Safeguarding
        Citizens – Computer Security Systems program provide accurate award information and
        that the inaccurate award information identified in this report is corrected.

        Management Response: AQM concurred with the recommendation, stating that the
        bureau will research reported inaccuracies and provide OIG with an action plan to resolve
        any discrepancies.

        OIG Analysis: On the basis of the response, OIG considers the recommendation
        resolved. OIG will consider the recommendation closed pending review and acceptance
        of AQM’s action plan.

Instances of Noncompliance With Certain Office of Management and Budget
Requirements

       IRM generally followed OMB requirements for contracts supporting the Safeguarding
Citizens program. However, we identified minor instances of agency noncompliance with OMB
Memorandum M-09-154 concerning performance requirements in awarding contracts.
Specifically, for the 15 contracts reviewed, we noted the following instances of noncompliance:

        	 The clause in the FAR (part 52.204-11)5 that specifies recipient reporting
           requirements was not included in the award documents for one award.

        	 Pre-solicitation and award notifications were not published on FedBizOpps.gov for
           two awards. According to the FAR,6 agencies should publish both presolicitation and
           award notifications on FedBizOpps for the procurement of all goods and services
           using Recovery Act funds.

        	 On the Federal Procurement Data System Web site (FPDS.gov), one award was not
           identified as a Recovery Act initiative. According to the FAR,7 in addition to
           publicizing contract and award actions on FPDS.gov, agencies should label all awards
           that are Recovery Act related.

        Since almost all program funds have been obligated and the noncompliance instances
cited are primarily isolated, we are not making any recommendations in this area.




4
  Ibid. 

5
  FAR 52.204-11, “American Recovery and Reinvestment Act – Reporting Requirements.” (March 2009) 

6
  FAR 5.704, “Publicizing Pre-award,” and FAR 5.705, “Publicizing Post-award.” 

7
  FAR 4.605, “Contract Reporting - Procedures.”


                                                    6

                                           UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                     Appendix A

                                  Scope and Methodology
       The Department of State (Department), Office of Inspector General (OIG), contracted
with Clarke Leiper, PLLC, independent public accountant, to audit the Department’s
Safeguarding Citizens – Computer Security Systems (Safeguarding Citizens) program.

        The purposes of this audit were to evaluate the Safeguarding Citizens program and assess
the Department’s planning and use of Recovery and Reinvestment Act (Recovery Act) funds in
order to meet program objectives, to ensure that Recovery Act funds were used for their intended
purposes, and to determine whether the Department complied with Office of Management and
Budget (OMB) requirements. To ensure the adequacy of program plans and to ensure that the
Department used Recovery Act funds appropriately, we performed audit procedures to determine
whether

      Funds were awarded and distributed in a prompt, fair, and reasonable manner.
      Recipients and uses of all funds were transparent to the public and the public benefits of
       the funds were reported clearly and accurately and in a timely manner.
      Risks associated with the project receiving Recovery Act funding have been identified
       and communicated to the Department.
      Funds were used for authorized purposes.
      The program has taken action to identify and mitigate instances of fraud, waste, error,
       and abuse.
      Established schedules were monitored and delays were properly justified.
      Cost overruns and unnecessary delays were avoided and lessons learned were identified
       to prevent recurrences.
      Program goals were achieved and specific program outcomes were realized.
      Contractors and other fund recipients met eligibility requirements and complied with
       award requirements.
      Adequate planning was conducted for potential future project phases.

        We conducted the audit work from April through October 2010. This work was
conducted in accordance with generally accepted government auditing standards. Those
standards require that the auditors plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for their findings and conclusions based on audit
objectives. We and OIG believe that the evidence obtained provides a reasonable basis for the
findings and conclusions based on the audit objective.

       In our audit of the Department’s Safeguarding Citizens program, we interviewed project
managers and officials at the Bureaus of Information Resource Management (IRM) and
Diplomatic Security (DS). We also evaluated documentation that supported planned activities
and milestones, risk assessments, and other relevant documents in support of major
accomplishments or decisions. For compliance with Recovery Act requirements, we reviewed
contract files, award documentation, and information published on the Web sites Recovery.gov,

                                                7

                                        UNCLASSIFIED
                                       UNCLASSIFIED


FPDS.gov, and FedBizOpps.gov. In determining the proper use of Recovery Act funds, we
tested sample transactions and reviewed related source documents, including purchase orders,
contracts, vendor invoices, and payment and approval vouchers.

        In the draft report, we addressed the report’s one recommendation to IRM. However,
IRM officials suggested that the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management (A/LM/AQM), would be the more appropriate office to take
action on this recommendation. Therefore, we redirected the recommendation in this final
report to AQM, whose response is presented in Appendix C.

Work Related to Internal Controls

    To assess the adequacy of internal controls related to the weekly activity reports, the
accountability of Recovery Act funds, and the monitoring of projects to avoid cost overruns and
delays, we performed the following actions:

       Obtained an understanding of the processes and procedures.
       Reviewed source documentation and other types of evidence in order to confirm the
        adequacy of stated controls.
       Compared weekly report balances with details and reconciled differences in the Global
        Financial Management System (GFMS).
       Reviewed internal reports related to the compilation of balances and amounts for
        reporting to the public.
       Compared reported progress with information in the planning documents and progress
        schedules.
       Determined that separate Treasury Account Symbols were established for Recovery Act
        programs.
       Verified proper approval over transactions involving Recovery Act funds.
       Discussed with program managers issues regarding cost overruns and delays and
        subsequently compared responses with expenditure details and program schedules to
        assess the reasonableness of responses.

Data Reliability

         We selected a sample and performed the following procedures in assessing data
reliability and quality:

   	 Reviewed contract files to determine whether contracts were competitively awarded and
      at fixed cost.
   	 Tested, if a contract was determined to have been awarded noncompetitively or at a non-
      fixed cost, whether the contract was disclosed and listed in a separate section on
      Recovery.gov.
   	 Reviewed, for each contract, corresponding notifications and award information
      published on FedBizOpps.gov and FPDS.gov to determine whether all required Recovery
      Act disclosures and identifying information were reported.


                                               8

                                       UNCLASSIFIED
                                       UNCLASSIFIED



   	 Reviewed, for each contract, the vendors’ reported data from Recovery.gov to ensure that
      all required information was included. We also compared vendor-reported amounts with
      those within GFMS.
   	 Compared weekly financial report balances with underlying schedules and GFMS details.

Use of Computer-Processed Data

        We used computer-processed data from GFMS to select sample items for testing
contracts and obligation and/or expenditure transactions. We also compared GFMS details and
reconciling schedules with information reported within the Recovery Act weekly financial
reports posted by the Department. We determined that the GFMS data and schedules were
reliable based on our selected sample and our testing of internal controls involving the weekly
reporting process.




                                               9

                                       UNCLASSIFIED
                                         UNCLASSIFIED



                                                                                    Appendix B

                                  Capital Investment Fund
        Funding for the Department of State (Department) Recovery and Reinvestment Act
(Recovery Act) is allocated between four separate Treasury Account Symbols (TAS), or funds.
These funds were created to comply with the Recovery Act requirement of tracking and
accounting for Recovery Act funds separately from other agency funds. Each TAS and related
activities are included within the Department’s weekly financial reports.

      As shown in Table 1, the Department’s Capital Investment Fund (TAS 1119) is broken
down into three sections: Data Center, Cyber Security, and IT Platform initiatives.
Safeguarding Citizens is tracked and recorded under the Cyber Security portion of the fund (TAS
1119.0002).

Table 1. Department of State Capital Investment Fund
Department of State – Capital Investment Fund             Fund       Planned          Actual
(TAS 1119)                                                Code       Budgeted       Obligations
    - Data Center                                       1119.0001    120,000,000     119,972,941
    - Cyber Security                                    1119.0002     98,500,000      98,502,834
    - IT Platform                                       1119.0003     33,500,000      33,499,148
Transfer to U.S. Agency for International Development       -         38,000,000      38,000,000
                                              TOTAL                 $ 290,000,000   $ 289,974,923
Source: Department of State.




                                                 10

                                         UNCLASSIFIED
                                UNCLASSIFIED



                                                                                    Appendix C




                                                United States Department of State
                                                Washington , D.C 20520

                                                July 19,2011

UNCLASSIFIED
MEMORANDUM

TO:         OIG/AUD -    ~ark   Taylor

FROM:       Cathy Rea~MlAQM

SUBJECT: Draft Reports ~~ Audit of the Department of State Safeguarding
         Citizens - Computer Security Systems Program Funded by the
         American Recovery and Reinvestment Act

Recommendation 1: We recommend that the Bureau ofInfonnation Resource
Management, Office of Enterprise Network Management, ensure, through more
effective oversight ofthe quarterly review of recipient-reported data, that
contractors that receive awards from the American Recovery and Reinvestment
Act for the Safeguarding Citizens - Computer Security Systems program
provide accurate award infonnation and that the inaccurate award infonnation
identified in this report is corrected.

AlLMlAQM response :

AlLMiAQM will work with the OIG regarding the identified contractsltask orders
and will research each reported inaccuracy. Once all procurement-related actions
have been researched and verified, AlLMlAQM will provide OIG with an action
plan to resolve any discrepancies.




                                UNCLASSIFIED




                                         11 


                                UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320 

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
